LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 9, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1108 : DERAY MCKESSON V. JOHN DOE
Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Institute for
Free Speech, on April 9, 2020, I caused service to be made pursuant to Rule 29 on the
following counsel for the Petitioner and Respondent.
PETITIONER:
David Thomas Goldberg
Donahue, Goldberg, Weaver & Littleton
109 South Fifth Street, Suite 4201
Brooklyn, NY 11249
212-334-8813
david@donahuegoldberg.com

RESPONDENT:
Donna Unkel Grodner
Grodner & Associates, A.P.L.C
2223 Quail Run Drive, Suite B1
Baton Rouge, LA 70808-0000
225-769-1919
dgrodner@grodnerlaw .com

This service was effected by depositing three copies of the Brief of Amicus Curiae
Institute for Free Speech in an official “first class mail” receptacle of the United States
Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 9th day of April 2020.

